Case: 16-2630

Document: 52-1

Filed: 09/02/2020

Page: 1

(2 of 4)

No. 16-2630
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
JOHNNY TIPPINS,
Plaintiff-Appellant,
v.
NWI-1, INC., et al.,
Defendants-Appellees,
FRUIT OF THE LOOM
Interested Party-Appellee.

FILED
)
)
)
)
)
)
)
)
)
)
)
)
)

Sep 02, 2020
DEBORAH S. HUNT, Clerk

ORDER

Before: CLAY, Circuit Judge.
Johnny Tippins, a Michigan prisoner proceeding pro se, has filed a third motion to recall
the mandate in his appeal from the district court’s dismissal of his complaint against NWI-1, Inc.,
LePetomane II, Inc., LePetomane III, Inc., and Velsicol Chemical, LLC.
In 2015, Tippins filed a complaint against the defendants in the Circuit Court of Gratiot
County, Michigan, alleging that he was injured as a result of drinking contaminated water while
incarcerated in a state prison in St. Louis, Michigan from 2004 to 2007. The defendants removed
the action to the United States District Court for the Eastern District of Michigan and added Fruit
of the Loom, Inc., as an interested party. After the case was removed, the district court dismissed
the complaint as untimely. Tippins appealed, and this court affirmed the district court’s judgment.
Tippins v. NWI-1, Inc., No. 16-2630 (6th Cir. Oct. 11,2017) (order). Tippins now moves this court
for a third time to recall the mandate.
“Although courts of appeals have the inherent authority to recall a mandate, such power
should only be exercised in extraordinary circumstances because of the profound interests in
repose attached to a court of appeals mandate.” United States v. Saikaly, 424 F.3d 514, 517 (6th

Case: 16-2630

Document: 52-1

Filed: 09/02/2020

Page: 2

No. 16-2630
-2-

Cir. 2005) (order). “The sparing use of the power demonstrates it is one of last resort, to be held
in reserve against grave, unforeseen contingencies.” Calderon v. Thompson, 523 U.S. 538, 550
(1998). While Tippins argues that he seeks for this court to correct a clerical mistake or clarify an
outstanding mandate because he erroneously included LePetomane II, Inc. and LePetomane III,
Inc. as defendants in his complaint, he is merely attempting to reargue our previous determination
that the district court had jurisdiction over his complaint. Moreover, amending a complaint to
remove a defendant is not the correction of a clerical error. See United States v. Robinson, 368
F.3d 653, 656 (6th Cir. 2004) (explaining, in the criminal context, that “a clerical error must not
be one of judgment or even of misidentification, but merely of recitation, of the sort that a clerk or
amanuensis might commit, mechanical in nature” (citation omitted)). Finally, Tippins’s argument
that this court did not correctly apply Michigan Compiled Laws § 600.5855 is merely an attempt
to reargue the determination that his complaint was untimely, which is not a basis for recalling the
mandate. Accordingly, Tippins has failed to demonstrate extraordinary circumstances warranting
recalling the mandate.
We also now enjoin Tippins from future filings in this case. “There is nothing unusual
about imposing prefiling restrictions in matters with a history of repetitive or vexatious litigation.”
Feathers v. Chevron U.S.A., Inc., 141 F.3d 264, 269 (6th Cir. 1998). And we may, facing this type
of litigation, “place[] limits on a reasonably defined category of litigation because of a recognized
pattern of repetitive, frivolous, or vexatious cases within that category.” Id. Tippins has displayed
a pattern of repetitive, frivolous, and vexatious litigation in this court related to his assertion that
he was injured as a result of drinking contaminated”water wh’ileTie was incarceratedllftRe'SfXouis
Correctional Facility. To date, Tippins has filed a petition for rehearing and three motions to recall
the mandate in this case. And in Case No. T7-I508, which also concerns injuries that Tippins
allegedly sustained as a result of drinking contaminated water at the St. Louis Correctional Facility,
_he has filed a petition for rehearing and two motions to recall the mandate. Finally, the district
court has enjoined Tippins from future filings without court permission regarding his injuries from
drinking contaminated water. Tippins v.'Caruso, No. 2:14-cv-10956 (E.D. Mich. Feb. 16, 2017)
(order).

(3 of 4)

j

NOT RECOMMENDED FOR FULL-TEXT PUBLICATION
No. 16-2630
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

)
)
)
)

JOHNNY TIPPINS,
Plaintiff-Appellant,

)
)
)
)

v.
NWI-1, INC., et al.,
Defendants-Appellees,
FRUIT OF THE LOOM,
Interested Party-Appellee.

FILED
Oct 11,20T7
DEBORAH S. HUNT, Clerk

ON APPEAL FROM THE UNITED
STATES DISTRICT COURT FOR
THE EASTERN DISTRICT OF
MICHIGAN

)
)
)
)
)
)

ORDER
Before: SUHRHEINRICH, MOORE, and CLAY, Circuit Judges.
Johnny Tippins, a Michigan prisoner proceeding pro se, appeals the district court s
dismissal of his complaint against NWI-1, Inc., LePetomane II, Inc., LePetomane IE, Inc., and
Velsicol Chemical, LLC.

This case has been referred to a panel of the court that, upon

examination, unanimously agrees that oral argument is not needed. See Fed. R. App. P. 34(a).
On October 23, 2015, Tippins filed a complaint against the defendants in the Circuit
Court of Gratiot County, Michigan, alleging that he was injured as a result of drinking
contaminated water while incarcerated in a state prison in St. Louis, Michigan from 2004-2007.
The defendants removed the action to the United States District Court for the Eastern District of
Michigan and added Fruit of the Loom, Inc. as an interested party. After the case was removed
to the district court, the district court granted the defendants’ motions to dismiss and entered

No. 16-2630
-2-

judgment in their favor. On appeal, Tippins argues that the district court erred in dismissing his
claims as untimely.

Because Tippins failed to raise claims under the Comprehensive

Environmental Response, Compensation, and Liability Act in his complaint before the district
court, we will not review them for the first time on appeal. See United States v. Ellison, 462 F.3d
557, 560 (6th Cir. 2006).
We review de novo a district court’s dismissal of a complaint on statute of limitations
grounds. Banks v. City of Whitehall, 344 F.3d 550, 553 (6th Cir. 2003). Pursuant to Michigan
law there is a three-year statute of limitations for personal injury claims and claims brought
under the Michigan Natural Resources and Environmental Protection Act. Michigan Compiled
Laws §§ 600.5805(10) and 324.20140(l)(c). “Under Michigan’s ‘discovery rule,’ a plaintiffs
claim accrues when the plaintiff discovers, or through the exercise of reasonable diligence should
have discovered, (1) an injury and (2) the causal connection between the injury and the
defendant’s breach.” Vill. of Milford v. K-H Holding Corp., 390 F.3d 926, 932 (6th Cir. 2004)
(citing Moll v. Abbott Labs., 506 N.W.2d 816, 824 (Mich. 1993)). While Tippins claims that he
did not know of his injury until 2014, when he discovered that the prison drinking water
contained the p-CBSA contaminant, in his complaint he alleged that he was diagnosed with
Graves’ disease in 2007 and that, while incarcerated from 2004-2007, he suffered stomach pain,
headaches, throat pain, nausea, and fatigue. Because Tippins knew of his injury by 2007 at the
latest, the district court did not err in determining that his claims are untimely.
Accordingly, we AFFIRM the judgment of the district court.

ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

APm o i x

r
-4

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
t

k

No: 16-2630

Filed: November 27, 2017
JOHNNY TIPPINS
Plaintiff - Appellant
v.
NWI-1, INC., LEPETOMANEII, INC., as Trustee of the Fruit of the Loom Successor
Liquidation Trust; LEPETOMANE III, INC., as Trustee of the Fruit of the Loom Custodial
Trust; VELSICOL CHEMICAL, LLC, fka Velsicol Chemical Corporation
Defendants - Appellees
FRUIT OF THE LOOM
Interested Party - Appellee

MANDATE
Pursuant to the court's disposition that was filed 10/11/2017 the mandate for this case hereby
issues today.
■>

COSTS: None

\

\

